—
I

C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 21-144

SEATTLE’S UNION GOSPEL MISSION,

Petitioner,
v.
MATTHEW S. WOODS,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF CHRISTIAN
LEGAL SOCIETY, ADMINISTER JUSTICE, NEW COVENANT LEGAL SERVICES,
COMPASSIONATE COUNSEL, CHRISTIAN LEGAL AID OF ARIZONA, AND ACCESS
JUSTICE AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case

complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Centary Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5980 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ae NOTARY State of Hebrasia & Ch by
i RENEE u, GOSS ( dearer

fy Comm. Exp. Soptambar 8, 2023

 

Notary Public

Affiant

41362
